February 1, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews –Richmond, VA
         (Report Number FF-MA-11-015)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Richmond
Business Mail Entry Unit (BMEU), Richmond, VA (Project Number 11BR004FF003),
performed November 30, 2010. The Richmond BMEU is in the Richmond District of the
Capital Metro Area. At the conclusion of FY 2011, we will summarize the results for all
reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission, which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC Group to conduct tests of key
financial reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
February 2011 in accordance with the Quality Standards for Inspections.1 We discussed

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business Mail                      FF-MA-11-015
 Entry Unit Oversight Reviews – Richmond, VA


our observations and conclusions with management officials on January 18, 2011, and
included their comments where appropriate.

Conclusion

An FTC analyst did not properly conduct their examination of key SOX financial
reporting controls. Specifically,




           When FTC analysts do not properly conduct their reviews, the Postal
Service’s independent external auditor cannot rely on their test results. See Appendix A
for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim reports but will
have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Timothy Cole, acting audit
manager, at 724-584-5642, or me at 724-584-5630.

      E-Signed by Kevin Ellenberger
    VERIFY authenticity with ApproveIt
       Tuesday, 01 February, 2011



Kevin Ellenberger
Director, Field Financial – East

Attachments

cc:        Douglas G. Germer
           Corporate Audit and Response Management




2
    SOX Key Controls for Business Mail Review, step 450004, November 24, 2010.



                                                         2
                                              Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business Mail                                   FF-MA-11-015
 Entry Unit Oversight Reviews – Richmond, VA


                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                  Richmond BMEU
       Finance Number-Unit ID                                     517650-0169
       Location Type                                              BMEU
       Scope Period Under Review                                  October 1, 2010 – November 29, 2010
       FTC Review Program Version and Date                        November, 24, 2010
       FTC Team                                                   East



                                                                                                       Did FTC
                                                                      Did the OIG        Did FTC      adequately     Did the OIG agree
                                                                         have          perform the   document its        with FTC’s
                                                                      exceptions/        step in         work           exceptions/
                                                 Did FTC have          findings        accordance     performed       findings (or no
                                                  exceptions/          that FTC           to its        and the         exceptions/
FTC Review             FTC Review Step/         findings in this       did not?         program?       results?          findings)?
Step/Control #         Step Description         step? (Yes/No)         (Yes/No)         (Yes/No)       (Yes/No)           (Yes/No)
450001/104CA63       Check-In Process          No                     No               Yes           Yes            Yes
& 104CA163
450002/104CA2     Verification of Funds on     No No                                   Yes           Yes            Yes
                  Deposit
450003/104CA65    Use of PS Form 3607-         No No                                   Yes           Yes            Yes
                  P, Clearance Document
450004/104CA66 Re conciliation Process         No                     Yes              No            Yes            No
450005/104CA06 SOX      Certification          No                     No               Yes           Yes            Yes
450006/104CA1 Postage       Statement          No No                                   Yes           Yes            Yes
                  Completion




                                                                         3
                                                              Restricted Information
